Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141

STATE OF NEW YORK,
SS:

80380

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK
Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 2nd day of October 2019 deponent served 3 copies of the within
BRIEF AMICI CURIAEOF THE AMERICAN CIVIL LIBERTIES UNION
AND THE ACLU OF NEW MEXICO, IN SUPPORT OF PETITIONER

upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

E. Joshua Rosenkranz
Orrick, Herrington & Sutcliffe LLP
51 West 52nd Street
New York, NY 10019
212-506-5380
jrosenkra nz@orrick.com
Attorneys for Petitioner

Mark D. Jarmie
Jarmie & Rogers, P.C.
Attorneys at Law
500 North Church Street
P.O. Box344
Las Cruces, N.M. 88004
(575] 526-3338
mjarmie@jarmielaw.com
Attorneys for Respondent

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on October 2, 2019, pursuant to Supreme Court
Rule 29.5(c]. All parties required to be s e r v e ~ : : r ~

c/J

_

Howard Daniels

Sworn to me this

October 2, 201 9
RAMIRO A. HONEYWELL
Not ry Public, State of New York
No. 01H06118731
Qualified in Kings County
Com mi · ion Expires November 15 , 2020

Case Name: Andrea Hirst v. Skywest, Inc.
Docket No.: 1 9-292

